No. 20In the

Supreme Court of the United States

Brian Doty,
Petitioner,
v.
Tappan Zee Constructors, LLC.,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Second Circuit

PETITION FOR A WRIT OF CERTIORARI

Paul T. Hofmann
Counsel of Record
Hofmann & Schweitzer
212 West 35th Street, 12th Floor
New York, NY 10001
(212) 465-8840
paulhofmann@hofmannlawfirm.com
Counsel for Petitioner

304566

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
The questions presented are:
1. Where, in this case, it is undisputed that the
injured worker spent 90% of his working time on vessels
in navigation, operating cranes and excavators on barges,
repairing vessel appurtenances, transporting by vessel
tools and materials to his employer’s fleet of 100+ vessels
which were building the new, and demolishing the old,
Tappan Zee Bridge across the 3 mile-wide Hudson River,
and where admittedly his work contributed to the function
of, and accomplishment of the mission of that fleet, did the
Second Circuit err by holding, as a matter of law, he was
not entitled to a jury determination of his status as a Jones
Act seaman, thus violating Supreme Court precedent, and
conflicting with at least six other Circuit Court decisions?
2. Should the Second Circuit’s decision be overturned
because application of it going forward virtually would
improperly exclude from Jones Act seaman status those
maritime workers whose work vessels are located at
stationary construction or mineral resource recovery
sites?

ii
RELATED DECISIONS
1.

Brian Doty v. Tappan Zee Constructors, LLC., 7:17-cv07947-KMK-LMS before the Southern District of New
York. Decision entered on December 18, 2019.

2.

Brian Doty v. Tappan Zee Constructors, LLC., 831
Fed. Appx. 10 (2nd Cir 2020), Case 20-36, appeal of
District Court’s order and decision brought before the
United States Court of Appeals for the Second Circuit,
Decision entered on October 22, 2020. Brian Doty v.
Tappan Zee Constructors, 20-36, decision denying
petition for panel rehearing, or in the alternative, for
rehearing en banc brought before the United States
Court of Appeals for the Second Circuit, entered on
December 23, 2020.

iii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
RELATED DECISIONS  . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . vi
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
THE STATUTES INVOLVED IN THE CASE . . . . . . 1
INTRODUCTION AND
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
A. The Undisputed Facts Giving Rise to
this Claim  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
B. Proceedings in the District Court and
Court of Appeals . . . . . . . . . . . . . . . . . . . . . . . . . . .7
REASONS FOR GRANTING THE PETITION . . . . . 9

iv
Table of Contents
Page
I

THE SECOND CIRCUIT, IN AFFIRMING
THE DISTRICT COURT, ERRED IN
NOT PERMITTING MR. DOTY A JURY
DETERMINATION AS TO HIS SEAMAN
	STATUS  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
A. Second Circuit Improperly Classified
Plaintiff as a Harbor Worker . . . . . . . . . . . 14
II

THE SECOND CIRCUIT’S DECISION
NO T ON LY C ON F L IC T S W I T H
SUPREME COURT DECISIONS BUT
THOSE OF SIX OTHER CIRCUITS AND,
INDEED OTHER SECOND CIRCUIT
AUTHORITY . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
A. Supreme Court Authority . . . . . . . . . . . . . . 18
B. Conflicts with Six Other Circuit Courts
Decisions . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
C. Second Circuit Authority Conflicting
With Decision Below  . . . . . . . . . . . . . . . . . . 24

CONCLUSION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

v
TABLE OF APPENDICES
Page
A ppendix A — SUMMARY ORDER of
the U N I T ED S TAT E S C OU RT OF
APPEALS FOR THE SECOND CIRCUIT,
DATED October 22, 2020 . . . . . . . . . . . . . . . . . . . 1a
Appendix b — EXCERPT OF TRANSCRIPT
OF THE UNITED STATES DISTRICT
COURT SOUTHERN DISTRICT OF NEW
YORK, DATED DECEMBER 17, 2019  . . . . . . . . . . 8a
Appendix C — DENIAL OF REHEARING
of the UNITED STATES COURT OF
APPEALS FOR THE SECOND CIRCUIT,
DATED DECEMBER 23, 2020 . . . . . . . . . . . . . . . . 32a
Appendix D — RELEVANT Statutory
	provisions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34a

vi
TABLE OF CITED AUTHORITIES
Page
U.S. Supreme Court Decisions
Chandris, Inc. v. Latsis,
515 U.S. 347 (1995)  . . . . . . . . . . . . . . . . . . . . . . . passim
Dir., Office of Workers’ Comp. Programs v.
Perini N. River Assocs.
459 U.S. 297 (1983) . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Harbor Tug and Barge Co. v Papai,
520 U.S. 548 (1997) . . . . . . . . . . . . . . . . . . . 2, 10, 12, 29
Jerome B. Grubart, Inc. Great Lakes Dredge &
Dock,
513 U.S. 527 (1995)  . . . . . . . . . . . . . . . . . . . . . . 5, 10, 12
McDermott International, Inc. v. Wilander,
98 U.S. 337 (1991)  . . . . . . . . . . . . . . . . . . . . . . . . passim
Stewart v. Dutra Construction Co.,
543 U.S. 481 (2005) . . . . . . . . . . . . . . . . . . . . . . . passim
Southwest Marine, Inc. v. Gizoni,
502 U.S. 81 (1991)  . . . . . . . . . . . . . . . . . . . . . . . . passim
United States Courts of Appeals Decisions
Bunch v. Canton Marine Towing Co.,
419 F.3d 868 (8th Cir. 2005) . . . . . . . . . . . . . . . . . . . . 24

vii
Cited Authorities
Page
Foulk v. Donjon Marine Co., Inc.,
144 F.3d 252 (3d Cir. 1998) . . . . . . . . . . . . . . . . . . 20, 21
In Re Endeavor Marine, Inc.,
234 F.3d 287 (5th Cir. 2000) . . . . . . . . . . . . . . . . . . . . 22
Matter of Buchanan Marine,
874 F.3d 356 (2d Cir. 2017), cert. denied,
sub. nom, Volk v Franz, __U.S.__,
138 S. Ct. 1442 (2018)  . . . . . . . . . . . . . . . . . . 7, 8, 26, 27
Matter of Weiss v. Central R.R. Co. of N.J.,
235 F.2d 309 (2d Cir. 1956) . . . . . . . . . . . . . . . . . . . . . 26
Offshore Co. v. Robison,
266 F.2d 769 (5th Cir. 1959) . . . . . . . . . . . . . . . . . 23, 27
O’Hara v. Weeks Marine, Inc.,
294 F.3d 55 (2d Cir. 2002) . . . . . . . . . . . . . . . . . . . . . . . 8
Producers Drilling Co. v. Gray,
361 F.2d 432 (5th Cir. 1966) . . . . . . . . . . . . . . . . . . . . 23
Rogers v. Gracey-Hellums Corp.,
331 F. Supp. 1287 (E.D. La. 1970), aff ’d,
442 F.2d 1196 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Sanchez v. Smart Fabricators of Texas, LLC,
2021 WL1882565 (5th Cir. May 11, 2021) . . . . . 22, 23

viii
Cited Authorities
Page
Saylor v. Taylor,
77 F. 476 (C.A.4 1896) . . . . . . . . . . . . . . . . . . . . . . . . . 21
Scheuring v. Traylor Bros.,
476 F.3d 781 (9th Cir. 2007) . . . . . . . . . . . . . . . . . . . . 24
Stewart v. Dutra Const. Co., Inc.,
418 F.3d 32 (1st Cir. 2005)  . . . . . . . . . . . . . . . . . passim
Uzdavines v. Weeks Marine, Inc.,
418 F.3d 138 (2d Cir. 2005) . . . . . . . . . . . .  11, 17, 24, 25
Wallace v. Oceaneering Int’l,
727 F.2d 427 (5th Cir.1984) . . . . . . . . . . . . . . . . . . . . . 21
State Court Authorities
Gibson v. Am. Constr. Co., Inc.,
200 Wash. App. 600, 402 P.3d 928
(Wash. Ct. App. 2017) . . . . . . . . . . . . . . . . . . . . . . . . . 13
Federal Statutes
28 U.S.C. § 1257  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Jones Act, 46 U.S.C. § 30104 . . . . . . . . . . . . . . . . . . . . . . . 2
Longshore and Harbor Workers Compensation Act,
33 U.S.C. § 901 et seq. . . . . . . . . . . . . . . . . . . . . . passim

1
OPINIONS BELOW
The transcript of the Oral Decision and Opinion
of the United States District Court for the Southern
District of New York dated December 17, 2020, is included
in Petitioner’s Appendix B. The United States Court
of Appeals for the Second Circuit Decision and Order
affirming the grant of summary judgment, dated October
22, 2020, is reported and published at 831 Fed. Appx.
10 (2nd Cir. 2020), and is included in Appendix A. The
United States Court of Appeals for the Second Circuit
Order Denying Panel Rehearing or Rehearing en banc,
dated December 23, 2020, is unreported and is included
in Appendix C.
JURISDICTION
The Second Circuit issued its decision denying the
appeal of the District Court grant of summary judgment
to the defendant in the underlying action below. This Court
has jurisdiction under 28 U.S.C. § 1257. In addition, the
jurisdiction of the Supreme Court of the United States
is also based on COVID Order List: 589 of the Supreme
Court of the Untied States, dated March 19, 2020, which
extended the deadline to file any petition for a writ of
certiorari to 150 days.
THE STATUTES INVOLVED IN THE CASE
The Longshore and Harbor Workers Compensation
Act (“LHWCA”), 33 USC § 901 et seq., the pertinent
provisions of which are reproduced in Appendix D.

2
The Jones Act, 46 USC § 30104 et seq., the pertinent
provisions of which are also reproduced in Appendix D.
INTRODUCTION AND
STATEMENT OF THE CASE
This appeal seeks to overturn the decision of the
Second Circuit which ignored the means the Supreme
Court established for determining the demarcation line
between a Jones Act seaman and a covered worker under
the Longshore and Harbor Workers Compensation Act,
that is, allowing a jury to determine his status.
Application of the decision below virtually would
exclude most maritime workers engaged in maritime
construction or resource extraction (such as dredge
workers or drill rig roustabouts) whose work vessels locate
at on-site, near stationary construction or extraction
sites, from being determined to have Jones Act seaman
status, as a matter of law, because the Second Circuit now
essentially is imposing a condition upon seaman status that
these workers’ vessels must routinely travel between port
to port or at least some substantial measurable distance
within a situs.
The Second Circuit’s decision violates the Supreme
Court precedent developed over the past 30 years, starting
with Southwest Marine v. Gizoni, 502 U.S. 81 (1991),
through Chandris, Inc. v. Latsis, 515 U.S. 347 (1995) and
ending with Harbor Tug and Barge Co. v Papai, 520 U.S.
548 (1997),and conflicts with at least six other Circuit
court decisions.

3
Here the injured worker, Brian Doty, was a marine
Operating Engineer whose undisputed work for his
employer, Tappan Zee Constructors, LLC (“TZC”) six
days a week, 12 hours a day, spent 90% of his working
time on vessels in navigation, operating cranes and
excavators on barges, repairing vessel appurtenances,
transporting tools and materials to his employer’s fleet
of 100+ vessels building the new and demolishing the old
Tappan Zee Bridge across the 3 mile wide Hudson River.
The court below and employer conceded that his work
contributed to the function of the vessels he worked on,
and the accomplishment of the mission of that fleet. Yet, in
the Second Circuit’s view, affirming the District Court’s
finding as a matter of law, Doty was not entitled to a jury
determination of his status, because he “did not operate
or otherwise assist in the navigation of any vessel”, when
he did his repair work on the fleet of TZC’s vessels which
were “stationary” and “not navigating over water” and
because he “went home at the end of an hourly shift and
never slept aboard a vessel.” (Pet. App. A at 4a). Thus, it
found he was covered exclusively by the provisions of the
Longshore and Harbor Workers Compensation Act, 33
USC § 901 et. seq. (hereinafter sometimes “LHWCA” or
the “Act”). (See, Pet. Appdx. D).
In Gizoni and Chandris, Inc. v. Latsis, this court
made it perfectly clear that determining who may be
entitled to seaman status is a jury question in all but the
most clear cases where the court could find that under
no circumstances could a jury find in favor of the worker
on summary judgment. Ignoring that constitutionally
based decision, the Second Circuit in the case sub judice,
affirmed a district court summary determination that
the maritime worker in question was covered exclusively

4
by LHWCA in its decision which relied on the flawed
reasoning noted above.
This appeal seeks to have the Court reinstate this
maritime engineer’s claim, by reiterating that the status
decision tool is a decision making function of a jury. In so
doing, the Court would also resolve conflict between the
Second Circuit and numerous other Circuits on this point
by finding that construction workers’ work on primarily
stationary vessels at sea fulfills the status requirement of
the multi-pronged test to be considered a seaman under
the Jones Act.
A. The Undisputed Facts Giving Rise to this Claim.
The following facts were uncontradicted on appeal.
Tappan Zee Constructors, LLC, (“TZC”) contracted
with the New York State Thruway Authority (“NYSTA”)
to construct a new twin-span Tappan Zee bridge to
demolish the aged one being replaced. The bridge crosses
the three mile wide Hudson River connecting Rockland
and Westchester Counties. TZC created a fleet of about
100+ owned or leased vessels, including tugboats, 26
crane barges, various material barges and work boats to
accomplish this mission. The site had four “ringer crane
barges”, large deck barges with huge cranes affixed to the
barge decks with a ring made of steel beams to support
extremely heavy counterweights that could ride on and
rotate 360 degrees around the ‘ring’ so its cranes could
lift massive piece of materials. One of the crane barges
was the “Strong Island” upon which plaintiff was injured.
(Pet. Appdx. A at 2a).

5
Mr. Doty was hired by TZC in May 2014 as a marine
operating engineer to work as barge based equipment
operator and mechanic dedicated to work on the TZC
vessel f leet. His union supplied the operating and
maintenance crews for the fleet, including tugboat captains
and deckhands. He operated construction equipment,
maintained and repaired tug-boats, work-boats, crewboats and crane barges. These work barges were moved
along the bridge by TZC tug boats, which at times Doty
helped maintain. He worked typically 12 hours a day five
and six days a week for his employer, TZC. He was injured
six months later, on November 14, 2014, when he fell from
a 6’ height, causing spinal fractures, while working on a
huge crane barge in the middle of the Hudson River.
On this project, at the beginning of the work day, the
workers were transported by crew boat from the shore to
the ‘mechanics barge’, which stored tools and equipment,
situated about two miles out in the river where they
received their work assignments for their vessel repair
work.
Doty worked at the bridge for 6 months during 12
hour night shifts, 5-6 days a week. He spent at least 90%
of his working time on vessels in the river. On the barges
he operated cranes and other equipment. He maintained
and repaired vessels, and their appurtenant equipment
such as water pumps, light towers and generators and
cranes. He performed oil changes, replaced filters and
hydraulic hoses, repaired exhaust equipment, addressed
system air leaks and changed crane cable wires, and
pumped out barges to keep them afloat. Such equipment
is all considered vessel appurtenances Jerome B. Grubart,
Inc. Great Lakes Dredge & Dock., 513 U.S. 527, 535 (1995).

6
Given numerous assignments each day, from 5-7
times a day he boarded a TZC work boat on which he
transported tools, equipment and materials to vessel work
sites, traveling many miles per day on the river doing so.
The vessels were often in the navigation channel,
but always subject to tides, currents, winds, storms and
darkness on the open water. There was always heavy
boat traffic around. Doty almost never worked on a vessel
moored safely at a dock. He was exposed to many marine
perils including tides and currents, rough choppiness with
several foot high waves causing significant vessel motion
and strong currents.
Several serious maritime accidents caused by these
marine perils occurred on the river at the construction
site. Two crew boats sank and a tug-boat sank during a
bad storm. Several construction barges broke away from
their moored location on the river. Several fatal collisions
occurred at the bridge project. In July 2013, a power boat
crashed into one of the barges moored on the Hudson
River, killing two people. In March 2016, a tugboat crashed
into one of the work barges at the bridge, causing the tug
to sink, killing three people.
On November 19, 2014, Mr. Doty was injured repairing
the Strong Island. After getting his assignment, he
transported tools and equipment by work boat to the
barge. While aboard, he slipped and fell off an unprotected
8”-10” wide steel beam, falling to the deck resulting in
fractures to several vertebrae. Doty argues that defendant
was negligent in failing to provide a safe place to work,
that the vessel was unseaworthy due to the dangerous
conditions existing at all times in the dangerous walking
surfaces he was provided.

7
B. Proceedings in the District Court and Court of
Appeals.
Plaintiff sued TZC claiming that he was a Jones Act
seaman and was injured through his employer’s negligence
and the vessel Strong Island’s unseaworthiness. In the
alternative, he claimed if he were found not to be a seaman,
he was entitled to claim for vessel negligence under
LHWCA §§ 905(b) and 933. On the Jones Act seaman’s
claim, the District Court held as a matter of law Mr. Doty
could not be found by a jury to be a seaman. (Pet. Appdx.
B at 23a). It also rejected the § 905(b) claim alleging vessel
negligence. (Pet. Appdx. B at 31a).
Petitioner appealed both decisions to the Second
Circuit.
On October 22, 2020 the Second Circuit panel affirmed
the District Court’s order, stating:
We agree with the district court that Doty is not
a seaman. Like the plaintiff in Buchanan1, Doty
(1) performed maintenance work exclusively
on stationary vessels rather than vessels
navigating over water; (2) did not operate
or otherwise assist in the navigation of any
vessel; (3) held no maritime license; and (4)
went home at the end of an hourly shift and
1. Mattter of Buchanan Marine, 874 F.3d 356 (2d Cir. 2017),
cert denied, sub. nom Volk v Franz, __U.S.__, 138 S Ct 1442
(2018). Buchanan Marine, is eminently distinguishable as there,
the worker participated in the loading of aggregate cargo into
barges and clearly was a covered employee under the definition in
33 USC § 902(3) of a longshoreman or an “other person engaged
in longshoring operations.” (Pet. App. D. at 35a).

8
never slept aboard a vessel. See id. at 366-67;
see also O’Hara v. Weeks Marine, Inc., 294
F.3d 55 (2d Cir. 2002) (finding lack of seaman
status for dock worker who (1) worked only on
vessels secured to a pier; (2) did not “operate
a barge or otherwise assist in its navigation”;
(3) “held no Coast Guard license or other
seaman’s papers”; and (4) “never spent the night
aboard a barge.” (internal quotation marks
omitted)). Doty argues that his employment
circumstances differ from those of the plaintiff
in Buchanan in that Doty worked on vessels that
were floating (though secured) in the middle of
open water rather than moored to a riverside
dock; accordingly, he claims that he had a
greater exposure to certain maritime perils,
such as choppy waters or heavy boat traffic.
Even assuming that to be correct, however, that
one factor would not tip the scales in his favor
under the totality of the circumstances analysis.
Considering all the circumstances, we conclude
that Doty was not a seaman 2 .
(Pet App. A at 4a).
That, of course, meant that Mr. Doty was a covered
employee exclusively under the LHWCA. The Circuit
Court then affirmed the dismissal of the claims made
under § 905(b) of LHWCA. (Pet App. A at 7a).
The within petition to the Supreme Court only seeks
reversal of the decision denying claimant’s entitlement to
have a jury determine his Jones Act seaman status.
2. The panel’s Summary Order is reproduced in Appendix A.

9
REASONS FOR GRANTING THE PETITION
I
THE SECOND CIRCUIT, IN AFFIRMING THE
DISTRICT COURT, ERRED IN NOT PERMITTING
MR. DOTY A JURY DETERMINATION AS TO HIS
SEAMAN STATUS
In denying Mr. Doty the right to have a jury determine
whether he was entitled to be found to be a seaman,
the Second Circuit ignored the import of the directives
in Chandris, Inc. v. Latsis, 515 U.S. 347 (1995) that
generally Jones Act status is a jury question. 3 Chandris
summarized the tests for what a maritime worker must
show to be considered to have “Jones Act” seaman status.
It noted that the determination is a fact intensive question
for a jury, that the totality of the circumstances must be
considered, and it is not for the court but a jury to decide
seaman status. It held that unless under no circumstances
could a jury find seaman status, that question should go to
the jury. The court stated “if reasonable persons, applying
the proper legal standard, could differ as to whether the
employee was a member of the crew. . .it is a question for
the jury.” Id. at 369. Only in rare cases is the question
taken from the jury or trier of fact even when the claims
of seaman status appear to be relatively marginal. 515
U.S. at 369.

3. Indeed, Mr. Doty argued to the courts below that he was
entitled to summary judgment in his favor on the issue of seaman
status, that is, under no analysis of the agreed facts could he be
found not to be a seaman.

10
The Second Circuit decision disregards the maritime
law as enunciated by the Supreme Court, creates
unnecessary conf lict among the Circuits, ignores
Second Circuit precedents and violates the paramount
interest of uniformity of maritime law. There are certain
requirements the Supreme Court over the past 30 years
has designated for a maritime worker to qualify as a Jones
Act seaman, many of which the Second Circuit ignored in
its analysis, but which Mr. Doty fulfilled. They are:
1.

There must be vessel related employment.4

2.

On a vessel or a fleet of vessels. 5

3.

That contributes to the function of the vessel or
the accomplishment of its mission.6

4.

With said work being accomplished on a vessel
at least 30% of the time by the worker.7

5.

That the work be maritime related but not
necessarily as an aid to navigation8 nor related
to inter-continental transportation.9

4. Chandris Inc. v. Latsis, 515 U.S. 347 (1995), McDermott
International, Inc. v. Wilander, 498 U.S. 337 (1991); Jerome B.
Grubart, Inc. Great Lakes Dredge & Dock, 513 U.S. 527 (1995)
5. Harbor Tug and Barge Co. v Papai, 520 U.S. 548 (1997)
6. Wilander, supra., Chandris, supra.
7. Chandris, supra.
8. Wilander, supra.
9. Stewart v Dutra Const. Co., 543 U.S. 481 (2005), Southwest

11
6.

That a harbor worker’s activities performing
vessel repair work can qualify the worker for
Jones Act seaman status should they show
compliance with the above factors.10

The factors disclosed surrounding Mr. Doty’s
employment show each of these elements were fulfilled
and he should have been found to be a Jones Act seaman,
or at least have a jury decide the issue. Mr. Doty’s work
helped vessels navigate around the site to accomplish
their mission by his repair of appurtenances thereto.
He, further, navigated a half dozen times a day among
those vessels scattered along the three mile wide river
bringing tools and materials to those vessels so that
they could be operated. Those vessels clearly had a
transportation function. Those many vessels in the fleet
carried huge cranes and construction materials to the
site, installed it along the new bridge structure, removed
the old structure and loaded and transported away the
demolished materials. The panel said he did not aid to their
navigation, which is a test jettisoned by the Supreme Court
in Wilander, supra. where a paint foreman was found to be
a Jones Act seaman even though his vessel only performed
sand-blasting and painting on fixed platform structures.
See, 498 US at 355 - 357. The decision also overlooks that
the Supreme Court in Chandris specifically rejected a
‘voyage’ requirement to be covered by the Jones Act. See
Papai, 520 U.S. at 561.

Marine, Inc. v. Gizoni, 502 U.S. 81 (1991) and see Uzdavines v
Weeks Marine, Inc., 418 F.3d 138 (2d Cir 2005).
10. Southwest Marine, Inc. v. Gizoni 502 U.S. 81 (1991).

12
As noted in Wilander and Chandris, to be a seaman,
the laborer’s work must be for the benefit of the vessel
and the accomplishment of its mission. Wilander, 498
U.S. at 354–55; Chandris, 515 U.S. at 369. As the Court
in Grubart, supra. makes clear, the work of, on and with
the appurtenances of a vessel constitutes the work of the
vessel. Here, 100% of the work Mr. Doty performed on a
daily basis was for the benefit of TZC’s vessels and their
appurtenances, such as repairs of the vessels’ appurtenant
cranes, light towers, pumps and all other types of
equipment on the fleet of TZC vessels. As Papai makes
clear, vessel related employment to a fleet of commonly
owned or operated vessels qualify the worker for seaman
status equally as if he/she worked on a single vessel. Papai,
515 U.S. at 368.
Additionally, the panel overlooked the import of the
work Mr. Doty performed transporting aboard TZC
vessels equipment and materials to aid in the maintenance
and repair of the vessels so that they could function.11 This
was a critical factor in Gizoni in finding that maritime
repair work to be able to present a jury question about
seaman status. In Gizoni, the marine repairman similarly
transported tools and materials to service the vessels
(notably not even in his employer’s own fleet) to which he
was assigned to work on. Nor did the Second Circuit even
mention that Mr. Doty’s time spent working with vessels
was triple that of the 30% minimal time threshold required
by Chandris to support a finding of seaman status.

11. Some 5-7 times per day he transported tools, equipment
and materials by boat. (A18-A19).

13
The Supreme Court in Gizoni recognized that
some maritime workers may be Jones Act seamen who
are injured while also performing a job specifically
enumerated under the LHWCA. The Court stated:
While in some cases a ship repairman may lack
the requisite connection to a vessel in navigation
to qualify for seaman status ... not all repairmen
lack the requisite connection as a matter of
law. This is so because it is not the employee’s
particular job that is determinative, but the
employee’s connection to a vessel. By its terms
the LHWCA preserves the Jones Act remedy
for vessel crewmen, even if they are employed
by a shipyard.
Gizoni, 502 U.S. at 89 (citations, footnote, and internal
quotation marks omitted).12
Significantly, the Second Circuit’s decision improperly
failed to recognize that performing sea-based, long
term maritime construction work for an employer’s fleet
of barges is itself of a ‘sea-going nature’ as a seagoing
activity, fulfilling the final leg of the Chandris test that his
work be both substantial in terms of nature and duration.

12. Other courts, relying on Gizoni, have also found that
construction company repair workers could attain Jones Act
status. See, Gibson v Am. Constr. Co., Inc., 200 Wash App 600, 604,
402 P3d 928, 932 (Wash Ct App 2017)(mechanic in a construction
company’s marine construction department fell through a hatch
while working on a crane barge moored at the company’s dock
entitled to adjudication of Jones Act status).

14
A. Second Circuit Improperly Classified Plaintiff as
a Harbor Worker
The Second Circuit improperly classified Mr. Doty
as a covered “harbor worker” under the Longshore and
Harbor Workers Compensation Act. Obviously he was not
a longshoreman, as he had nothing to do with loading or
unloading ships, thus to prohibit him from having Jones
Act status it had to say he was a harborworker. But clearly,
he was not working in a harbor while participating in
building this bridge in the 3 mile wide, tidal Hudson River.
The Act provides no definition of harbor worker, but does
in various provisions give clues as to who should be so
considered. Maritime construction workers and maritime
mineral resource extractors are not listed as covered by
the Act, but the following are:
-

any longshoreman or other person engaged in
longshoring operations, § 902(3) (Pet. App. D at
35a);

-

ship repairman, shipbuilder, and ship-breaker, §
902(3) (Pet. App. D. at 35 a)

The list of those the Act excludes is also informative.
Thus, § 902(3) excludes coverage for the following class
of workers working in a harbor, if they are subject to
coverage under a State workers’ compensation law :
(A) individuals employed exclusively to perform
office clerical, secretarial, security, or data
processing work;

15
(B) individuals employed by a club, camp,
recreational operation, restaurant, museum,
or retail outlet;
(C) individuals employed by a marina and who
are not engaged in construction, replacement,
or expansion of such marina (except for routine
maintenance);
(D) individuals who (i) are employed by
suppliers, transporters, or vendors, (ii) are
temporarily doing business on the premises of
an employer described in paragraph (4), and (iii)
are not engaged in work normally performed
by employees of that employer under this Act;
(E) aquaculture workers;
( F) i nd iv idua ls employed t o bu i ld a ny
recreational vessel under sixty-five feet in
length, or individuals employed to repair any
recreational vessel, or to dismantle any part
of a recreational vessel in connection with the
repair of such vessel;
(G) a master or member of a crew of any vessel;
or
(H) any person engaged by a master to load
or unload or repair any small vessel under
eighteen tons net.
Additional exclusions in the Act point to the intent of
the Act to provide coverage for those workers working in
safe harbor facilities not exposed to the open water marine

16
environment as was Mr. Doty and other maritime heavy
construction workers employed on vessels in the open
waters. Thus, in § 903(d)(1), most workers at small boat
construction, repair or dismantling facilities are excluded
from coverage if otherwise covered by state workers
compensation. That provision states, “[n]o compensation
shall be payable to an employee employed at a facility of
an employer if, as certified by the Secretary, the facility
is engaged in the business of building, repairing, or
dismantling exclusively small vessels ... unless the injury
occurs while upon the navigable waters of the United
States or while upon any adjoining pier,wharf, dock,
facility over land for launching vessels, or facility over
land for hauling, lifting, or drydocking vessels.” (Pet.
Appx. D. at 42a).
The inclusion of coverage under the Act of only marina
construction workers (§ 902(3)(C)) is also indicative of an
intent that other maritime construction workers working
heavy construction in open waters, such as Mr. Doty, are
not to be included under the general rubric of “harbor
worker.” (Pet. Appdx. D at 36A).
That maritime construction workers are not statutorily
included in what is a ‘harbor worker’ is further shown by
those who are categorized as an “employer” in § 902(3)13
(Pet. Appdx. D at 36A), which includes those whose
workers are covered by the Act because of employment
at a pier, wharf, dry dock, terminal, building way, marine
railway, or other adjoining area customarily used by an
employer in loading, unloading, repairing, or building
a vessel. None of these tasks remotely suggest heavy
13. Likewise, see § 903(a), which describes the coverage of
the Act using the same terminology. (Pet. Appdx. D. at 42a).

17
construction being performed from work barges floating
or attached to the open navigable waters must be included
in the definition of a harbor worker. Without doubt,
some maritime construction workers whose employment
primarily involves working on a pier in a safe harbor could
be included as a covered worker, see Dir., Office of Workers’
Comp. Programs v. Perini N. River Assocs. 459 U.S. 297,
299 (1983) but that still does not prohibit construction
workers from claiming seaman status. Perini, of course,
does not mandate that maritime construction workers
cannot be seamen under the Jones Act. It only holds that
a maritime construction worker injured on the navigable
waters, under the right circumstances, can be considered
a covered employee under LHWCA. But, as the Second
Circuit found in Uzdavines v Weeks Marine, Inc., 418
F.3d 138 (2d Cir. 2005) (discussed infra.) simply claiming
LHWCA covered status does not necessarily mean that
a worker’s decision to seek coverage under the Act takes
him automatically removes him from being found to be a
seaman. In such case, as in Uzdavines, the employer may
assert that it is not subject to the Act’s provisions due to
the seaman’s exclusion in § 902(3)(G). (Pet. Appdx. D at
36a).

18
II
THE SECOND CIRCUIT’S DECISION NOT
ONLY CONFLICTS WITH SUPREME COURT
DECISIONS BUT THOSE OF SIX OTHER
CIRCUITS AND, INDEED OTHER SECOND
CIRCUIT AUTHORITY
A. Supreme Court Authority
Directly on point, but not even cited by the Second
Circuit, is Southwest Marine, Inc. v Gizoni, 502 U.S. 81
(1991) where a ship repair facility employee who worked on
numerous non-self propelled barges used to repair other
vessels was accorded the right to a jury trial on his Jones
Act status. There the Court held that he could proceed
to prove it “[b]ecause a ship repairman may spend all of
his working hours aboard a vessel in furtherance of its
mission—even one used exclusively in ship repair work—
[thus] that worker may qualify as a Jones Act seaman.”
502 U.S. at 92.
Significant, but also ignored, is Stewart v Dutra
Const. Co., 543 U.S. 481 (2005) where another engineer
repairman was injured in a construction project. Like
here, the barge in Stewart was immobile at the time of
the incident, and when it did move, it traveled 30-50 feet
about every two hours. Affixed to it was a large excavator
used to dig out sediment for a tunnel being built. Two
dependent questions were posed in Stewart. Although
moored, the court held it was a vessel in navigation and the
injured worker was sufficiently connected to that vessel
because his duties contributed to the accomplishment
of the mission and function of the vessel. On remand

19
from the Supreme Court, the First Circuit in Stewart v
Dutra Const. Co., Inc., 418 F.3d 32 (1st Cir 2005) found
the marine engineer/ maintenance worker involved in
digging the trench for a tunnel across Boston Harbor to
be a seaman as a matter of law.
The Second Circuit’s decision defies the instructions
in the seminal Supreme Court’s cases as to who is entitled
to claim seaman status. As such, the petition should be
granted to rectify the Second Circuit’s error.
B. Conflicts with Six Other Circuit Courts Decisions
The panel’s decision also conflicts with decisions of
six other Circuits analyzing similarly situated maritime
construction workers, thus, the Second Circuit decision is
an outlier needing to be reined in.
1st Circuit
As mentioned above, the First Circuit in Stewart
v Dutra Const. Co., Inc., 418 F.3d 32 (1st Cir 2005), on
remand from the Supreme Court, found the marine
engineer/ maintenance worker involved in digging the
trench for a tunnel across Boston Harbor to be a seaman
as a matter of law. It held:
The question is whether, in light of the Court’s
decision in Stewart v. Dutra Construction Co.,
543 U.S. 481 (2005) (Stewart III), we should
rule, as a matter of law, that the plaintiff
was a seaman for Jones Act purposes. After
studying the Court’s decision and the parties’
supplemental briefs, we answer this question
in the affirmative ...

20
Id at 33.
This construction/mining activity was performed in
a near-stationary location on a daily basis. Stewart, as a
marine engineer, contributed to its function even though
the construction vessel was always affixed to the river
bottom, on-site and virtually not traveling from point to
point.
3rd Circuit
In Foulk v. Donjon Marine Co., Inc., 144 F.3d 252 (3d
Cir.1998) a commercial diver working with a crane barge
on jetty construction was found to be entitled to show
seaman status. The Third Circuit noted that:
here is no question that Foulk met the first
requirement—he contributed to the functioning
of the vessel and to the accomplishment of
its mission. As the district court found, the
mission of the vessel in question, the Farrell
256, was the installation of an artificial reef...
Foulk was employed as a diver whose duty it
was to aid in the installation of the reef. See
Wilander, 498 U.S. at 355 (“It is not necessary
that a seaman aid in navigation or contribute to
the transportation of the vessel, but a seaman
must be doing the ship’s work.”). There is also
no question that Foulk met the first part of
the second requirement—his connection to
the vessel was substantial in nature. As the
district court found, Foulk and the dive crew
were necessary for the successful completion
of the Farrell 256’s project — the construction

21
of the artificial reef. Foulk, 961 F.Supp. at 697.
Furthermore, the profession of commercial
diving is maritime in nature as it cannot be done
on land. Wallace v. Oceaneering Int’l, 727 F.2d
427–36 (5th Cir.1984). Commercial divers are
regularly exposed to the perils of the sea, the
protection from which was the purpose of the
Jones Act seaman requirement. Chandris, 515
U.S. at 368–70, 115 S.Ct. at 2190.
Foulk v Donjon Mar. Co., Inc., 144 F3d 252, 258-59 (3d
Cir 1998).
This construction activity was performed in a
stationary location on a daily basis. Foulk, as a marine
diver, contributed to its function even though the
construction vessel was on-site and was not traveling from
point to point.
4th Circuit
In Saylor v. Taylor, 77 F. 476 (C.A.4 1896), a dredge
worker, in the pre-Jones Act era, was found to be able to
show seaman status. In Stewart, the Court noted that
these type of construction related workers can be seamen,
noting: “[d]espite the seeming incongruity of grouping
dredges alongside more traditional seafaring vessels
under the maritime statutes, Congress and the courts
have long done precisely that.” 543 U.S at 497.
Like in Stewart, this material mining activity was
performed in a near-stationary location on a daily basis.
There, the dredge worker contributed to the vessel’s
function even though the construction activity of a dredge

22
was done virtually on-site and not traveling from point
to point.
5th Circuit
In In Re Endeavor Marine, Inc., 234 F.3d 287 (5th
Cir 2000), like here, the plaintiff was a crane operator
assigned to work aboard a derrick barge on the Mississippi
River that was usually moored to a dock where he loaded
and unloaded cargo and helped to maintain the crane.
Sometimes, the barge was moved from its base wharf to
other wharfs for loading and unloading ships. On at least
one occasion during the 18 months he worked on the barge,
the plaintiff rode the barge from one location to another to
operate and perform maintenance on the crane. On other
occasions, he drove his automobile to the new location
where the barge was moved. There, the court found the
plaintiff to be a seaman, based on the fact that (1) plaintiff
was permanently assigned to and worked on the same
barge during his entire employment, (2) the barge was
moved on occasion to different wharfs on the Mississippi
River and the plaintiff moved to whatever new location
the vessel was moved to, and finally he was exposed to
the perils of the sea, in that case the Mississippi River.
In a decision issued on May 11, 2021, the Fifth Circuit
in Sanchez v. Smart Fabricators of Texas, LLC, 2021
WL1882565 (5th Cir. May 11, 2021) reiterated that these
facts were sufficient to determine that a maritime crane
operator could meet the seaman status test.
Doty’s facts are even stronger. His work was never
performed at a safe cove or pier, but was performed in
the dangerous waters of the wide Hudson River. Like
the operator in Endeavor Marine, he was permanently

23
assigned to the fleet of vessels operated by his employer,
and was not sporadically employed by an independent
contractor who assigned him to that fleet on a transitory
or sporadic basis performing a discreet project and then
being reassigned to some other shore based project.
Moreover, the Second Circuit’s decision also conflicts
with the Fifth Circuit’s line of cases finding drilling
crews permanently assigned to drill vessels essentially
permanently stationed on a well head in the navigable
waters to have seaman status. There is nothing particularly
different about sitting on a well-head, not traveling back
and forth between ports, and performing construction
work creating a five-mile long bridge structure, yard
by yard. Fifth Circuit decisions on this point conflicting
with the Second Circuit’s Doty decision include Rogers
v. Gracey-Hellums Corp., 331 F. Supp. 1287, 1288 (E.D.
La. 1970), aff’d, 442 F.2d 1196 (finding that a roughneck
permanently attached to a barge was a member of the
crew), Producers Drilling Co. v. Gray, 361 F.2d 432,
436–37 (5th Cir. 1966) (finding that a roustabout who
maintained a barge and its equipment as well as helped
drill a well was a seaman) and Offshore Co. v Robison,
266 F.2d 769 (5th Cir 1959) (roustabout working on the
main deck of a mobile drilling platform or barge at a wellhead resting on the bottom of the Gulf of Mexico was a
seaman).14 Like those ‘roughnecks’ found to be seamen,
Mr. Doty, too, in his permanent assignment to the fleet
14. These three cases are specifically analyzed and approved
by the Fifth Circuit in the most recent pronouncement on seaman
status in Sanchez v. Smart Fabrication of Texas, L.L.C. 2021
WL1882565. (5th Cir. May 11, 2021). Further, it is to be noted
that the Robison decision was the primary underpinning to this
Court’s ground breaking decision in Wilander, supra..

24
did repairs and at times operated the equipment that did
the maritime construction on-site and often stationary
with only short movements along the developing bridge.
8th Circuit
Under Bunch v. Canton Marine Towing Co., 419
F.3d 868 (8th Cir. 2005) the Eighth Circuit also would
permit a jury to find Mr. Doty a seaman. There a barge
maintainer who worked almost exclusively on a fleet of
vessels, although moored, was entitled to show seaman
status.
9th Circuit
The 9th Circuit also would permit a jury to find a
similarly situated crane operator/repairman as Mr. Doty
to present a jury question on seaman status. Scheuring
v. Traylor Bros., 476 F.3d 781, 786-87 (9th Cir. 2007).
There, a crane operator like Mr. Doty, who worked on
a crane barge constructing a pier was entitled to show
Jones Act status because the barge was subject to wind
and wave action, it moved to various sites on the project,
and the worker performed repairs and at times did deck
hand work. Id at 786-87. Mr. Doty did all of the same
things, but the Second Circuit denied his right to a jury
determination of his status.
C. Second Circuit Authority Conflicting With Decision
Below
A critical decision ignored by the Second Circuit was
its own Uzdavines v Weeks Marine, Inc., 418 F.3d 138 (2d
Cir. 2005), which analyzed Jones Act versus Longshore

25
coverage for a maintenance engineer employed aboard a
barge with a bucket excavator used to dredge a portion
of New York Harbor as part of the aborted Navy Home
Port project. Aboard the barge he performed mechanical
repairs. After his death due to disease, his widow sought
LHWCA death benefits. The employer claimed that
despite his long history of shore-side work, Mr. Uzdavines
was not a covered employee under LHWCA, rather, he was
a Jones Act seaman, as a member of the crew of the dredge
and that his employment met each of the Chandris tests
and as applied in Stewart. The facts of Uzdavines, like
Stewart, are indistinguishable from Mr. Doty’s situation,
yet the Second Circuit ignored both.
The determination that Uzdavines’s connection to the
barge was both substantial in duration and nature, was
based on a finding that “[f]or a period of approximately
three to four consecutive weeks ... the decedent served
as an oiler aboard the dredge, working on “the brake
drums and friction drums which suspend the cable to lift
up the bucket while dredging.” 418 F.3d at 141. He also
maintained its engines. Id. at 145. Based on the above the
Second Circuit found as a matter of law that Mr. Uzdavines
was a seaman. Uzdavines 418 F.3d at 146.
Like in Stewart, Mr. Uzdavines’s work supported
the material mining activity of the vessel which was
performed in a near-stationary location on a daily basis. As
a marine engineer, he contributed to the vessel’s function
even though the construction vessel was virtually on-site
and not traveling from point to point.
The court here should have found that Mr. Doty
met all of the tests for seaman status because his duties

26
contributed to the function of the vessel in navigation or to
the accomplishment of its mission; and second, that he had
a connection here to a fleet of vessels in navigation that was
substantial in terms of both its duration and its nature.
Chandris, 515 U.S. at 376. These requirements are meant
to emphasize that “the Jones Act was intended to protect
sea-based maritime workers, who owe their allegiance to
a vessel and not land-based employees who do not.”
The Second Circuit below misplaced singular reliance
on Matter of Buchanan Marine, 874 F.3d 356 (2d Cir.
2017), which denied Jones Act status to that claimant
because, unlike Mr. Doty, he could not show compliance
with the basic factors postulated by the Supreme Court.
Indeed, there is nothing within the Buchanan Marine
decision even indicating if he met the required showing
of at least 30% of his time on vessels, compared to his
shoreside loading duties making him an “other person
engaged in longshoring operations.” 33 USC § 902(3).
The court’s decision also improperly consider relevant
the jettisoned concept that the worker had to aid in
navigation to be a seaman. See, Wilander, supra. It also
incorrectly relied on the fact that Mr. Doty did not sleep on
any vessel, a factor rejected in numerous cases, including
Matter of Weiss v. Central R.R. Co. of N.J., 235 F.2d 309
(2nd Cir. 1956).15
15. Notable is that the plaintiff in Stewart, who ultimately
was found to be a seaman in the final “Stewart” decision, Stewart
v Dutra Const. Co., Inc., 418 F.3d 32 (1st Cir 2005), like Mr. Doty,
was hired by a the local mechanic’s union to work as a mechanical
engineer. He was assigned to the construction project to maintain
the dredge in question’s functioning The plaintiff there lived
ashore and commuted to work each day. He never resided on

27
Similarly the court’s characterization that the Strong
Island was floating but ‘moored’ like the boats the plaintiff
in Buchanan Marine boarded is unsupported but, in any
event irrelevant, as the Supreme Court has stated:
Also, a watercraft need not be in motion to
qualify as a vessel under § 3. Looking to whether
a watercraft is motionless or moving is the sort
of “snapshot” test [for seaman status] that we
rejected in Chandris. Just as a worker does not
“oscillate back and forth between Jones Act
coverage and other remedies depending on the
activity in which the worker was engaged while
injured,” Chandris, 515 U.S. at 363, neither
does a watercraft pass in and out of Jones Act
coverage depending on whether it was moving
at the time of the accident.
Stewart, 543 U.S. 495-96.
Indeed, the vessel in Offhsore Co. v. Robison, supra.
which decision was the underpinning for the Wildander
decision in this court, was sunk and sitting on the bottom
of the Gulf of Mexico, much more stationary than any
of the vessels on which Mr. Doty worked. The panel
the barge which had no living quarters or full kitchen. This
information is stated in the brief to the First Circuit by Dutra
Construction Co., the employer of Mr. Stewart, which opposed
his seaman status, citing to the Appellate Record. “The Petitioner
lived ashore in East Boston and commuted to work each day. (C.A.
App. 90-91) He never resided on the Super Scoop, which had no
living quarters or full kitchen. (C.A. App. 240-241, 247).” Stewart
v. Dutra Construction Co., 2004 WL 1743936 (U.S.), 5 (U.S.,2004)
(Respondent Dutra’s Brief).

28
wrongly equated Mr. Doty to a ‘land-based worker’ who
just happened to be on a vessel at the time of injury. In so
doing, the Second Circuit misread the “connection” test
enunciated in Chandris to distinguish between land-based
workers and seafarers. That test reads:
The fundamental purpose of this substantial
connection requirement is to give full effect to
the remedial scheme created by Congress and
to separate the sea-based maritime employees
who are entitled to Jones Act protection from
those land-based workers who have only a
transitory or sporadic connection to a vessel in
navigation, and therefore whose employment
does not regularly expose them to the perils
of the sea.
Chandris, 515 U.S. 368.
The elements of that distinction are whether there
is a “transitory” or “sporadic” connection to a vessel (or
fleet) of vessels in navigation. Websters defines “sporadic”
to mean “occurring occasionally, singly, or in irregular or
random instances.” It defines “transitory” to mean “of
brief duration : temporary.” Nothing about Mr. Doty’s
work fits either definition, rather, he was purposefully on
the fleet of vessels all the time, not randomly, performing
necessary work to allow the vessels to complete their
mission.

29
CONCLUSION
The Second Circuit erred by not applying to the
question of whether Mr. Doty could be found to be a
seaman the applicable standards for the determination
stated in the Supreme Court cases of Gizoni, Chandris,
Wilander, Papai and Stewart. Its decision conflicts
with six other Circuit Court decisions and even other
Second Circuit authority. The uncontroverted evidence
is that Brian Doty met all of the tests enunciated in
those decisions to meet the seaman status requirement.
Accordingly, certiorari should be granted to rectify the
serious omissions of the Second Circuit.
Respectfully submitted,
Paul T. Hofmann
Counsel of Record
Hofmann & Schweitzer
212 West 35th Street, 12th Floor
New York, NY 10001
(212) 465-8840
paulhofmann@hofmannlawfirm.com
Counsel for Petitioner

APPENDIX

1a
Appendix A ORDER OF THE
APPENDIX A — SUMMARY
UNITED STATES COURT OF APPEALS FOR THE
SECOND CIRCUIT, DATED OCTOBER 22, 2020
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
20-36-cv
BRIAN DOTY,
Plaintiff-Appellant,
v.
TAPPAN ZEE CONSTRUCTORS, LLC,
Defendant-Appellee.
Appeal from the United States District Court for the
Southern District of New York (Karas, J.).
October 22, 2020, Decided
Present: ROSEMARY S. POOLER, RAYMOND J.
LOHIER, JR., WILLIAM J. NARDINI, Circuit Judges.
SUMMARY ORDER
ON CONSIDERATION WHEREOF, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
judgment of said District Court be and it hereby is
AFFIRMED.

2a
Appendix A
Brian Doty appeals from the December 18, 2019
judgment of the United States District Court for the
Southern District of New York (Karas, J.) granting
summary judgment to Tappan Zee Constructors, LLC
(“TZC”) on his claims brought under the Jones Act and
Longshore and Harbor Workers’ Compensation Act. We
assume the parties’ familiarity with the underlying facts,
procedural history, and specification of issues for review.
TZC was hired by the New York State Thruway
Authority to design and construct the Governor Mario
M. Cuomo Bridge to replace the Tappan Zee Bridge. TZC
hired Doty in May 2014 to work as a night-shift mechanic.
In that role, he maintained and repaired both vessels and
equipment appurtenant to materials barges, tug boats,
work boats and crane barges. The bridge construction
site had four ringer crane barges—barges with cranes
attached to the barge decks, with a ring of steel beams
that allowed the cranes to rotate 360 degrees while lifting
equipment and materials. As relevant here, one crane was
affixed to a 214-foot long crane barge named “The Strong
Island,” which was held in place by a 40-foot steel ring.
The barges at the bridge construction site were stationary
and moored. Aside from taking a boat between moored
barges, Doty did not work aboard a vessel while it was
traveling over water.
On November 19, 2014, Doty was injured while
repairing a crane attached to the Strong Island. He was
transported by work boat to the barge. Once there, he
entered the engine compartment cab and performed
diagnostic testing before exiting the cab to go the source

3a
Appendix A
of the problem. To do so, he had to walk on top of 8-to-10inch-wide steel beams, without the benefit of hand rails.
He slipped and fell five feet to the crane’s deck, injuring
several vertebrae. Doty sued, alleging TZC was negligent
in failing to provide a safe place to work and that the vessel
was unseaworthy due to dangerous walking surfaces
providing a dangerous condition. He sued for damages
under the Jones Act, 46 U.S.C. § 30104, and, alternatively,
under the Longshore and Harbor Workers’ Compensation
Act, 33 U.S.C. §§ 905(b) and 933 (“LHWCA”).
On appeal, Doty first challenges the district court’s
holding that he was not a seaman within the meaning of
the Jones Act. In Chandris, Inc. v. Latsis, the Supreme
Court set out a two-part test for who is a seaman within
the meaning of the Jones Act: “First . . . an employee’s
duties must contribute to the function of a vessel or to the
accomplishment of its mission” and “[s]econd . . . a seaman
must have a connection to a vessel in navigation (or to an
identifiable group of such vessels) that is substantial in
terms of both its duration and its nature.” 515 U.S. 347,
368-69, 115 S. Ct. 2172, 132 L. Ed. 2d 314 (1995).
The district court relied on our decision in the Matter
of Buchanan Marine, L.P., where this Court considered
whether a barge maintainer working at a riverside facility
was a seaman. 874 F.3d 356, 365 (2d. Cir. 2017). There, the
plaintiff was not assigned to any vessel and never operated
a barge. Id. at 366. When the plaintiff worked aboard
barges, the barges were secured to the dock in order
to inspect them for cargo loading and cargo transport.
Id. The plaintiff reported directly to the dock foreman,

4a
Appendix A
belonged to a union for equipment operators, and did not
have a maritime license. Id. at 367. Moreover, the plaintiff
“never spent the night aboard a barge” but rather “worked
an hourly shift and went home every night after his shift
ended.” Id. Weighing the total circumstances of the
plaintiff’s employment, the court found that “none of [his]
work was of a seagoing nature [and] he was not exposed
to the perils of the sea in the manner associated with
seaman status.” Id. at 368 (citations and internal quotation
marks omitted). Based on these facts, the Court found
that the plaintiff was not a seaman within the meaning
of the Jones Act. Id.
We agree with the district court that Doty is not
a seaman. Like the plaintiff in Buchanan, Doty (1)
performed maintenance work exclusively on stationary
vessels rather than vessels navigating over water; (2) did
not operate or otherwise assist in the navigation of any
vessel; (3) held no maritime license; and (4) went home at
the end of an hourly shift and never slept aboard a vessel.
See id. at 366-67; see also O’Hara v. Weeks Marine, Inc.,
294 F.3d 55 (2d Cir. 2002) (finding lack of seaman status
for dock worker who (1) worked only on vessels secured to
a pier; (2) did not “operate a barge or otherwise assist in
its navigation”; (3) “held no Coast Guard license or other
seaman’s papers”; and (4) “never spent the night aboard a
barge.” (internal quotation marks omitted)). Doty argues
that his employment circumstances differ from those of
the plaintiff in Buchanan in that Doty worked on vessels
that were floating (though secured) in the middle of open
water rather than moored to a riverside dock; accordingly,
he claims that he had a greater exposure to certain

5a
Appendix A
maritime perils, such as choppy waters or heavy boat
traffic. Even assuming that to be correct, however, that
one factor would not tip the scales in his favor under the
totality of the circumstances analysis. Considering all the
circumstances, we conclude that Doty was not a seaman.
Doty also challenges the district court’s dismissal
of his negligence claim brought under the LHWCA. The
LHWCA provides no-fault workers’ compensation benefits
for land-based, non-seaman maritime workers injured “in
the course of employment.” 33 U.S.C. § 902(2-4). “The
LHWCA’s no-fault compensation structure is the exclusive
remedy for injured [maritime employees] against their
employers.” Buchanan Marine, 874 F.3d at 363 (citing
33 U.S.C. § 905(a)). Thus, the LHWCA generally bars
negligence claims brought by maritime workers against
their employers. See O’Hara, 294 F.3d at 62 (“As with most
other workers’ compensation schemes, th[e] entitlement
[to no-fault compensation payments under the LHWCA]
displaces the employee’s common-law right to bring an
action in tort against his or her employer.”).
However, an injured maritime employee covered by
the LHWCA may sue negligent third parties in tort,
including the owner or charter of the vessel on which the
employee was injured. Id. at 363-64; see 33 U.S.C. § 905(b).
Here, TZC is both the employer and the vessel owner,
requiring analysis under the “dual capacity” standard
set forth Gravatt v. City of New York, 226 F.3d 108, 125
(2d Cir. 2000). This analysis focuses on “the allegedly
negligent conduct to determine whether that conduct was
performed in the course of the operation of the owner’s

6a
Appendix A
vessel as a vessel or whether the conduct was performed in
furtherance of the employer’s harbor-working operations.”
Id. “The negligence of the employer’s agents, acting in
tasks constituting harbor-work employment, may not be
imputed to their employer in its capacity as vessel owner.”
Id.
In Gravatt, a journeyman dock builder, who was
employed by a construction contractor retained by the
City of New York to repair one of its bridges, was injured
while working on a barge chartered by the contractor at
a construction site. Id. at 111. Normally, his duties did not
include handling materials on the barges, but, on the day
of his injury, he was instructed by the site foreman to go
onto a materials barge to help move old piles so as to clear
access to new materials. Id. at 113. He was subsequently
hit by a pile that was being moved in an allegedly unsafe
and negligent manner by personnel working on the crane
barge and knocked into the water, causing serious injuries.
Id. The Court assessed whether the employees’ negligent
conduct was undertaken in pursuance of the contractor’s
role as vessel owner or as employer. The Court noted
that “the task of the materials barge, as a vessel, was to
transport building materials from Newark to the work site
and to transport debris from the work site to Newark,”
while the work assigned to the foreman and to the injured
dock builder was to make repairs to the bridge, “which
included the unloading of construction materials brought
by the barges and the reloading of the barges with debris.”
Id. at 125. Moreover, all of the personnel working on the
crane barge were engaged in bridge repair; none was
engaged in seafaring work. Id. at 125-26. Simply put,

7a
Appendix A
“[n]either the materials barge, nor the crane barge, nor
anybody present at the bridge repair site was engaged
in vessel duties at the time of the accident.” Id. at 125.
Accordingly, this Court held that the contractor was
negligent in its capacity as employer, but not as a vessel
owner. Id. at 125. Thus, there was no claim under Section
905(b) because the defendants were responsible only as
employers, not as the vessel owners.
We agree with the district court that Doty cannot
bring a negligence action against TZC. Doty was engaged
in inspection and repair work at the time of his injury.
Assuming Doty’s injury was caused by TZC’s negligence,
the negligent act was committed while TZC acted as
a construction company building a bridge. The Strong
Island barge was moored and being used as a work
platform for the crane, and the crane was being used to
build the bridge. The allegedly dangerous condition was
related to TZC’s work as a construction company, not as
a vessel owner.
We have considered the remainder of Doty’s arguments
and find them to be without merit. Accordingly, the order
of the district court hereby is AFFIRMED.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

8a
Appendix BOF TRANSCRIPT
APPENDIX B — EXCERPT
OF THE UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK, DATED
DECEMBER 17, 2019
[1]UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
17 Civ. 7947(KMK)
BRIAN DOTY,
Plaintiff,
v.
TAPPAN ZEE CONSTRUCTORS LLC,
Defendant.
United States Courthouse
White Plains, New York
December 17, 2019
HONORABLE KENNETH M. KARAS, District Court
Judge
***
[26]was stationary with respect to the bottom of the river
at the time, the river was moving quite fast underneath the
vessel, so relative to the water, it was moving. But I think
that is critical. If that’s his argument and if the Court was

9a
Appendix B
thinking that he had to be on a vessel that was moving
for him to have an injury, that is just simply not correct.
THE COURT: Go ahead.
MR. DENGLER: That’s not my argument, and I don’t
think that’s what the Court was getting at. I agree that
where the location of the injury occurs is not relevant, or
it does not need to occur while on the vessel.
My argument is the job duties of Mr. Doty never were
carried out while he was on a vessel that was moving, and
that’s the key point.
Thanks.
THE COURT: Okay.
So as I said, we’re here for argument on the defense
summary judgment motion. It is true that the defense did
not -- I’m just going to go through the some of the relevant
facts -- it’s true, Mr. Hofmann is right, that the defense
did not respond to the plaintiff’s counterstatement, 561
statement, but to the extent the defense did dispute
some of the facts in the counterstatement in their own
statement, then I don’t see how the facts aren’t disputed.
I don’t think it really matters, honestly, because I think
the key facts are not in [27]dispute.
But in terms of some of the background. TZC was
hired by the New York State Thruway Authority to
design and construct a new bridge, and the bridge, we’re
talking about what used to be called the Tappan Zee,

10a
Appendix B
now that Governor Mario M. Cuomo Bridge. The bridge
spans the Hudson from Westchester to Rockland County.
Construction began back in 2013. Before working with
TZC, plaintiff’s work included work he did at an automobile
repair garage, sales for construction equipment, driving
a truck as a “teamster” and being a backhoe operator.
He possessed a Class A CDL driver’s license, and a
Transportation Worker Identification Credential, which
he obtained in connection with hauling propane in prior
employment. Plaintiff does not possess a Merchant
Mariner credential or any seaman’s papers, but he is a
member of the Operating Engineers Union Local 137.
Plaintiff was hired by TZC as a Group 2B mechanic
in May of 2014, and his role was that of “night shift
mechanic.” Plaintiff himself avers that “when repairs
were needed to service and fix equipment and vessels, [he]
and other maintenance workers would be called to fix it.”
That’s from paragraph 13 of the plaintiff’s affirmation.
As we’ve been reminded here by Mr. Hofmann,
plaintiff worked 12-hour shifts, typically five-to-six days a
week. His work largely consisted on working on equipment
attached to or [28] “laying upon moored barges at the
bridge construction site.” That’s actually from plaintiff’s
counterstatement, paragraph 14. Plaintiff himself asserts
that during his employment he spent “90 percent of shifts
on vessels on the navigable water of the Hudson River,
servicing the vessels, the barges, work boats, and the
tugboats.” That’s his affirmation at paragraph 21.
Plaintiff also testified that he and other mechanics
“weren’t working on the barges themselves” but rather

11a
Appendix B
were working on equipment on the barges or other vessels,
like “the tugboats and things of nature.” That’s from his
deposition at page 57.
Plaintiff also noted that some mechanics were
occasionally asked to conduct repairs to the barges
themselves, and they would do it, but that that’s not
something plaintiff himself ever did. That’s what he said
in his deposition.
In his affirmation what plaintiff said is that he “like a
ship’s engineer, did maintenance and repair work to the
vessel’s appurtenances when necessary” such as repair
and maintenance work where “the water pumps, light
towers, generators and cranes aboard the fleet of vessels.”
He also said that at times he pumped out barges to help
keep them afloat, something that Mr. Hofmann echoed
here today, and he also claimed that he spent “90 percent
of his shifts on vessels on a navigable water of the Hudson
River,” and “derived his [29]livelihood from...working for
TZC, maintaining the function of its vessels and repairing
them.” Paragraph 21.
Now it’s also not disputed that the barges at the bridge
construction site were largely stationary and “moored
in place-using spuds (vertical steel shafts or pilings).”
That’s from the counterstatement at paragraph 16. But
then plaintiff qualifies this by citing to a March 2, 2018,
press release by the US Coast Guard which reports that;
“several construction barges...were reported drifting
south of the Tappan Zee Bridge on Friday afternoon.”
So I guess, while the stationary nature of the barges is
apparently not dispositive, plaintiffs sure as heck is trying

12a
Appendix B
to make it seem like they weren’t moored or otherwise
stationary. Indeed, goes on to say that the Hudson River
is a highly dynamic and unstable system, citing plaintiff’s
affirmation which states, “the water was often choppy
with several high foot waves which caused significant
vessel motion.” But during his deposition Mr. Doty was
asked point blank:
“Question: The mechanic barge, that was moored;
right?
“Answer: Yes.” That’s page 62.
At page 63. “Question: Other than the work boat, did
you ever work aboard a vessel that was traveling over
water?
“Answer: No.”
[30]Page 68. “Question: But the tug was always
moored you were working on it?
“Answer: Yes.
“Question: The work boats that you worked on, when
there was an issue with a work boat, they were moored
as well?
“Answer: Yes. Sometimes they were in dry dock, too.”
Plaintiff acknowledges he never slept aboard the
barges, his tools stayed close to him and remained
with him during the workday. These are all from the
counterstatement.

13a
Appendix B
Paragraph 19 where plaintiff acknowledges he never
assisted in the movement of the mechanic’s barge, and
while he traveled over the water by vessel to get to the
mechanic’s barge, that was something that was part of his
commute. And at his deposition at pages 70, 71, plaintiff
acknowledged that he didn’t assist in the movement of
any vessels.
Now in terms of the accident itself, plaintiff alleges
that on November 19 of 2014 he suffered an injury to his
back while attempting to fix a “hoist control problem” on a
“ringer crane” mounted upon Strong Island barge, which
is one of TZC chartered barges.
Plaintiff had previously worked on the ringer crane on
the Strong Island barge “on several occasions, each time
having to access the ringer crane’s engine compartment.”
That’s paragraph 30 of the counterstatement.
[31]He was aware of some safety concerns about the
ringer crane. Paragraph 31.
Plaintiff also knew that when the ringer crane
experienced hoist control problems, it was frequently
due to a problem with “frozen air lines,” which had to be
fixed from within the ringer’s barge engine compartment.
Paragraph 32.
The engine compartment was accessed by walking
across “steel beams that were only 8-to-10 inches wide,”
which “had no handrails on either side and was about five
feet above the crane’s timber mats.” Paragraph 35.

14a
Appendix B
Upon crossing the steel beam, the mechanic would
then typically step onto the “crane track,” walk up to
an about 18-to-20 inch wide catwalk outside the doors
alongside the engine compartment,” and then enter the
compartment.
On November 19, plaintiff was advised “that the
Strong Island crane had a hoist control problem because
the air lines were frozen.” Paragraph 40.
He was able to reach the engine compartment and
perform diagnostics on the air lines. After this initial
inquiry, plaintiff realized that the problem was likely
coming from electrical components which were on the
other side of the engine compartment. Paragraph 41. To
access that other side, he had to exit the compartment,
step onto the catwalk, step down onto the crane track and
walk across a steel beam that was different between the
ringer’s crane tracks to access the other [32]side of the
ringer crane. Paragraphs 36 and 41.
Now plaintiff says that the steel beam “went under
the boom of the crane,” so he had to crouch to get under
the boom while walking across the steel beam. That’s
paragraph 42. As he was walking, plaintiff asserts that
he “slipped on the oily residue on top of the narrow beam
and fell five feet onto the crane’s timber mats.” Although
he landed on his “two feet,” he experienced “immediate
pain between his shoulder blades as a result of this fall.”
Plaintiff was able to finish working on the crane, but
as a result of the fall, he alleges he suffered injuries to

15a
Appendix B
several of his vertebrae. That’s paragraphs 44 to 45 of the
counterstatement.
We all know what the summary judgment standard
is, that is, summary judgment is only appropriate when
there is no genuine dispute as to any material fact and
the movant is entitled to judgment as a matter of law. Of
course it’s the movant’s burden to show that there’s no
fact dispute. All the facts have to be construed in light
of the non-movant and all ambiguities and all reasonable
inferences are to be drawn against the movant. Only
admissible evidence can be considered, and of course the
Court does not resolve any credibility disputes or any
other factual disputes and otherwise doesn’t weigh the
evidence.
All right, so the first issue here is whether [33]plaintiff
is a seaman under the Jones Act, and this is what’s alleged
in Counts One, Two and Three. Because all of them seek
relief under the Jones Act.
The act itself does not provide a definition of what a
seaman is. The Supreme Court, however, has promulgated
two basic requirements to be considered a seaman:
First, the worker’s duties must contribute to the
function of the vessel in navigation or to the accomplishment
of its mission; and
Second, the worker must have a connection to a vessel
in navigation that is substantial in terms of both its
duration and its nature. That’s from the Chandris case
515 U.S. 347, 376.

16a
Appendix B
Now according to the Supreme Cour t, these
requirements are meant to emphasize that “the Jones
Act was intended to protect sea-based maritime workers,
who owe their allegiance to a vessel and not land-based
employees who do not.” That’s page 376.
The ultimate inquiry is whether “the worker in
question is a member of the vessel’s crew or simply a landbased employee who happens to be working on the vessel
at a given time.” Page 370.
Chandris most recently was applied in a case that’s
relevant here in Matter of Buchanan Maritime L.P., 874
F.3d. 356. In Buchanan, the employee there was a “barge
maintainer” [34]who inspected barges used for loading
and transporting quarried rock walking along their
perimeters while they were moored to the either the dock
or other barges. In describing the case, the Second Circuit
noted that the plaintiff employee there “worked an hourly
shift, went home at the end of each work day, and did not
take meals or sleep on any barge. He was a member of
the International Union of Operating Engineers, which
represents equipment operators. He did not belong to a
maritime union or hold a maritime license.” Nor was the
plaintiff there a “crew member” on any of the tugboats
that transported the barges down the Hudson River.
Given this factual landscape, the circuit concluded that
the employee there was not covered by the Jones Act and
gave several reasons for that conclusion.
So among other things, the circuit noted that the
plaintiff there never operated a barge, and “only worked

17a
Appendix B
on board the barges when they were secured to the dock.”
Page 366.
Also that the plaintiff there never served as a crew
member on the barges of the tugboats, that the plaintiff
belonged to a union that represented equipment operators
and did not belong to a maritime union or hold a maritime
license, and also that the plaintiff “never spent the night
aboard a barge...in contrast, a traditional Jones Act
seaman normally serves for voyages or tours of duty.”
That’s 367.
[35]In reaching the result it did in Buchanan, the
Second Circuit specifically rejected the Fifth Circuit
case in – is it Naquin? I don’t know how to pronounce it.
Naquin?
MR. DENGLER: Naquin.
MR. HOFMANN: Yes, sir.
THE COURT: Naquin, N-A-Q-U-I-N. So regardless
of how I butcher the pronunciation, the spelling is the
same, versus Elevating Boats, 744 F.3d 927, where a
shipyard worker spent approximately 70 percent of his
total time working aboard so-called lift boats that were
moored, jacked up or docked in the shipyard canal. The
circuit noted, of course, that the Fifth Circuit decision
wasn’t controlling but also distinguished the facts in
Buchanan from Naquin, saying that in Naquin the
employee operated “the vessel’s marine cranes and jackup legs and worked aboard the vessels in open water,

18a
Appendix B
even if only occasionally.” Whereas in Buchanan, the
employee “worked on barges that were moored, directly
or indirectly, to the dock, and did not operate the work
boats or tugboats that transported the barges.”
Here it’s undisputed that plaintiff, in fact, spent most
of him time on moored barges performing mechanical
work for the bridge project. To the extent that he worked
on tugboats or work boats, they were moored at the time
of his work. That’s right from his deposition at page 68.
While plaintiff certainly rode on boats, he rode the work
boats as a [36]passenger but not as a crew member to be
transported to the barges for his work.
Even to the extent that his travel time could be
counted as sea-based work, that was, at best, maybe 30
minutes a day out of 12-hour shifts, which is far below the
30 percent that was discussed in Chandris.
So based on the undisputed facts here, and when
they’re lined up with the Second Circuit’s decision in
Buchanan, which though there may be people in this room
that think it was wrongly decided, I have to follow. And
I’m not saying I do think it was wrongly decided, I’m not
smart enough to figure that out.
So again, just to reiterate, although plaintiff
inspected equipment aboard a barge, he admits that the
barges were stationary and moored when he inspected
or fixed the equipment. That’s from paragraph 16 of his
counterstatement. You know, there’s an argument that the
barges would experience swells because of the currents

19a
Appendix B
and the tide. They’re still moored. And Buchanan doesn’t
suggest somehow that the result depends on how choppy
the waters are. It’s really about what work was being done,
and that’s what the focus is here.
Indeed, plaintiff never operated the barge or the boats
that transported him and other mechanics from the dock
to the barge or between the barges, and even to the extent
he did some maintenance work on the tugboats, again the
tug was always [37]moored when he was working on it.
That’s from his own deposition.
As I said, he rode the tugs mostly for transportation
purposes. And at least at his deposition he said was never
asked to do maintenance work on the barges themselves.
You can’t create a fact dispute by contradicting himself.
We all know that that’s clearly the law. Also, it’s undisputed
the plaintiff never slept on the boat or the barge or any
of the vessels that he worked on. He doesn’t possess any
Mariner Credential or seaman’s papers, and between his
shifts he would return back to land, and certainly never
stayed aboard the vessel for days at a time.
So while there may be some minor differences
in terms of job description between the employee in
Buchanan and here, the fundamental characteristics of
the two jobs are the same, which is that the plaintiff here
worked exclusively on stationary vessels, that he was never
a member of the crew who did work while the vessels were
transporting from one location to another. He never stayed
overnight. He didn’t stay on the vessels at all for days at
a time. Again, I don’t want to repeat it, it’s all been said.

20a
Appendix B
And so I think Buchanan is controlling here. It’s
also the facts here line up with the case called Schultz
versus Louisiana Dock Company, 94 F.Supp. 2d 746, 730,
which is an Eastern Louisiana decision. But any event,
Buchanan, it seems [38]to me, really does control here.
Now just to acknowledge the fact that plaintiff does
try to suggest that the question of seaman status is
normally a fact-intensive question which is typically for
the jury to decide. Indeed, of course that’s true when there
are fact disputes. Then it would be inappropriate to grant
summary judgment.
But that being said, within the Second Circuit courts
have granted summary judgment. In fact, that’s exactly
what happened to Buchanan. The circuit affirmed the
granting of summary judgment in O’Hara versus Weeks
Marine. The circuit affirmed granting of summary
judgment because as a matter of law the plaintiff didn’t
qualify as a seaman. Indeed, in that case the plaintiff spent
time, a significant amount of time working on a barge,
but he spent all that time performing tasks related to the
repair of the Staten Island pier while the barges were
secured to the pier. That’s, by the way, Weeks Marine
294 F.3d 55. That particular piece is from page 64. And
the Second Circuit in that case noted “even assuming the
stationary barges were vessels in navigation, the plaintiff
produced no evidence from which a reasonably jury could
conclude that he derives his livelihood from sea-based
activities. And most of the evidence establishes that the
plaintiff had a transitory or sporadic connection to the
barges in their capacity as vessels in navigation. Such a

21a
Appendix B
minimal [39]connection does not suffice to confer seaman
status on him.” And so I think that both Buchanan and
O’Hara, as I said, I think they’re controlling here.
Plaintiff cites some cases, so one of the cases plaintiff
cites is McDermott, Supreme Court decision back in 1991,
where the Supreme Court held it was not necessary for
an employee to have aided in navigation to be considered
a seaman under the Jones Act and that instead a seaman
should be defined “in terms of the employee’s connection
to a vessel in navigation.” That’s page 354. “A necessary
element of the connection is that a seaman perform the
work of a vessel.”
And so Buchanan, which obviously postdates this
decision, applies the law and comes out the way it does.
Now, again, Mr. Hofmann may have his issues with the
judges of the Second Circuit, but he may have his day to
confront them.
Plaintiff relies on Naquin in which the Second
Circuit specifically distinguished and anyway said wasn’t
controlling, which, of course, it isn’t.
Foulk versus Donjon Marine Company, a Third
Circuit decision from 1998, 144 F.3d 252. The plaintiff
there was part of a dive crew who assisted “in the
placement of a reef underwater.” The plaintiff there
had been hired for a ten-day period. The district court
granted summary judgment on the temporal factor
alone, which the Third Circuit reversed, saying that it
was inappropriate to attempt to determine the minimum

22a
Appendix B
[40]durational element by an absolute number such as ten
days. That’s not really at issue here. Also, the plaintiff’s
duties here did not involve the same duties as the plaintiff
in Foulk because Mr. Doty wasn’t supposed to be in the
water as part of his job. Now it may be, again, that the
waters were choppy, but he was not doing underwater
work in connection with the vessel.
Plaintiff cites Collick versus Weeks Marine, it’s
an unpublished decision from the Third Circuit which
actually ruled upon the appeal from the grant of a
summary judgment that the plaintiff had failed to show
that he “likely would be successful in proving he was a
seaman” where the plaintiff’s work was substantially
related to the construction of the pier unrelated to the
mission of the barge. I’m not sure why that case is helpful
to plaintiff. Another unpublished decision from the Fifth
Circuit, which I’ll just leave it at that.
There’s a Fourth Circuit case cited from pre-Elvis
Presly days, but there at least the plaintiffs were at least
partially engaged in assisting in the moving of the barge
along the shore. That case, by the way, is Summerlin
versus Massman Construction Company, 199 F.2d 715,
it’s a Fourth Circuit case from 1952.
Ninth Circuit case, Scheuring versus Traylor
Brothers, 476 F.3d 781. The plaintiff in that case was “most
importantly on at least three occasions aboard the barge
as it [41]was unmoored and moved by a tugboat,” and on
those occasions the plaintiff assisted with potentially
“sea-based duties such as handling lines, weighing and
dropping anchors, standing lookout, monitoring the

23a
Appendix B
marine band radio and splicing wire and rope.” Page 787.
None of those claims exist here.
And of course, as was pointed out, I think Mr. Dengler
said this, I think it was the last thing he said, the notion
that somehow Mr. Doty is this Jones Act seaman because
he “contributed to the function and mission of TZC’s
vessel,” which is exactly what he says at page six of his
brief, that’s not the test. In fact, the same could have been
said of the plaintiff in Buchanan because, for example,
inspection duties, what could be important to the overall
mission of a vessel. But in Buchanan and O’Hara, the
Second Circuit clearly drew a line separating seaman
from non-seaman employees in projects that happen to
take place on or near some body of water. So I think the
plaintiff’s argument just goes beyond what was accepted
in Buchanan and O’Hara and so because, as I said, I
think that the material facts in here, the undisputed
facts are really governed by Buchanan, the Court grants
summary judgment and dismisses Counts One, Two and
Three which are all predicated on plaintiff being a Jones
Act seaman.
Now, non-seaman plaintiffs receive relief under the
Longshore and Harbor Workers’ Compensation Act.
Do you all have a word you use for it, like the [42]
acronym?
MR. HOFMANN: LHWCA, Judge.
THE COURT: You don’t have a word for it?

24a
Appendix B
MR. DENGLER: Or Longshore.
MR. HOFMANN: Longshore.
MR. DENGLER: The Longshore Act.
THE COURT: Longshore? Because, I mean, LHWCA
doesn’t really work. All right, so Longshore, which is
a comprehensive workers’ compensation system under
which the employers are required to compensate covered
employees injured in the course of their employment
regardless of fault. That’s a quote from Gravatt, 226 F.3d
108, 115.
Now the defense concedes that plaintiff is covered by
Longshore because he was injured on actual navigable
waters and is not, defense’s view is he’s not covered by
the Jones Act because he’s not a seaman. In Lockheed
Martin Corp. versus Morganti, 412 F.3d 407, 412, the
Second Circuit said “when a worker is injured on the
actual navigable waters in the course of his employment
on those waters, he satisfies a status requirement in
Section 2(3), unless he is excluded by any other provision
of Longshore.” And the circuit has said, on a number of
occasions, including in Uzdavines versus Weeks Marine,
418 F.3d 138, 143, that Longshore and Jones Act are
mutually exclusive remedies.
Now like a lot of state workers’ compensation [43]
schemes, what the circuit has said is that Longshore
provides that the statutory no-fault compensation
payments are the employer’s exclusive liability to its

25a
Appendix B
employees when they are injured in the course of their
employment. The employee is therefore barred from
suing his employer in tort. On the other hand, as with
most state workers’ compensation schemes, the employee
may sue negligent third parties in tort notwithstanding
its entitlement to no-fault compensation provided by the
employer.” Gravatt at page 117.
But in some cases where the employer is also “the
owner or character of” the vessel where the injury
occurred, the employee “may bring an action in negligence
against the vessel as a third party.” Page 115, quoting
905(b).
When an action is brought against a third-party vessel
owner in general, there are three duties of care that
vessel owners owe to plaintiffs covered by Longshore,
as articulated in the Scindia case, and as described in
O’Hara at page 65.
So first is the turnover duty:
“First, before turning over the ship or any portion
of it to the stevedore [or other contractor employing
non-longshoring harbor workers], the vessel owner must
exercise ordinary care under the circumstances to have
the ship and its equipment in such condition that an expert
and experienced stevedore will be able by the exercise of
reasonable care to [44]carry on its cargo operations with
reasonable safety.”
This duty also “imposes on vessel owners...a duty to
warn stevedores or other contractors of hazards of which

26a
Appendix B
the vessels know or should know or which are unknown
or would not be obvious to the stevedore.”
The second duty is the active control duty.
“Second, once stevedoring operations have begun, the
vessel will be liable if it actively involves itself in operations
and negligently injures a longshoreman, or if the owner
acts negligently with respect to hazards in areas, or from
equipment, under the active control of the vessel during
the stevedoring operation.”
Finally is the duty to intervene.
“Third, with respect to obvious dangers in areas
under principal control of the stevedore, the vessel owner
must intervene if it acquires actual knowledge that,
one, a condition of the vessel or its equipment poses an
unreasonable risk of harm, and, two, the stevedore is not
exercising reasonable care to protect its employees from
that risk.” And this is all quoted from O’Hara at page 65.
So that’s the general rule. But in Gravatt, the Second
Circuit, in fact, expressed some concern as to whether
all these duties “apply to the dual-capacity case, where
the LHWCA provides that the employer vessel owner is
immune from suit for negligent conduct in its employer
capacity but liable [45]for suit under Section 905(b) for
negligence in its owner capacity.” That’s page 122.
The circuit went on to explain that although the
application of the turnover duty was “clear” in the dual-

27a
Appendix B
capacity situation, Scindia’s second and third prongs
were “more problematic” in “the circumstance where
the harbor-work contractor and the owner of the vessel
are the same entity.” Page 123. This is because “where
the contracted service is performed by employees of
the entity that owns the vessel, by definition the vessel
owner would have actively involved itself in the operation
and would have actual knowledge of the failure of the
personnel undertaking the task to operate in a manner
that protected their co-workers from danger.” Ultimately
this would provide certain harbor-working employees
with “more expansive tort remedies if employed by a
dual-capacity employer vessel owner than they would have
if employed by an independent contractor. By the same
token, the dual-capacity employer vessel owner would
have greater liabilities than if the work arrangement
involved a single capacity employer and a third-party
vessel.” Page 123.
The circuit noted that “this result would be contrary
to the express intent of Congress which sought generally
in drafting Section 905(b) to provide the same result
regardless whether the covered work was performed by an
independent contractor or by the ship through personnel
it hired directly [46]to perform it.”
So what Gravatt ultimately held was that “when the
employer of an injured harbor worker is also the owner of
the vessel and is sued by the harbor worker for negligence
under 905(b) for vessel negligence, the Court’s task is
to analyze the allegedly negligent conduct to determine
whether that conduct was performed in the course of the

28a
Appendix B
operation of the owner’s vessel as a vessel or whether the
conduct was performed in furtherance of the employer’s
harbor-working operations.” Page 125.
So here TZC entered into a bareboat charter with
Sterling Equipment, chartering vessels “to transport
construction materials and equipment,” in connection
with the bridge project. This included the Charter Order
for the Strong Island barge where the injury in question
occurred. TZC in a separate addendum in fact leased the
“barge-mounted” crane. The crane was used in the bridgereplacement project. And what plaintiff claims is that the
use of the steel gratings to provide a “secure, flat walking
surface” would have provided him and other mechanics
with easy ingress and egress to and from the crane’s
“engine cab.” That’s paragraph 7 and 8 of his affirmation.
Instead, the crane had and always had a network of 8-to-10
inch steel beams that plaintiff had to navigate to access
the engine compartment. Counterstatement paragraph
34 and 35.
[47]Plaintiff knew of the risks regarding the ringer
crane on the Strong Island barge before his injury,
which he acknowledged in paragraph 31, and one of the
defendant’s representatives, this person named Ronald
Albers, who was the TZC equipment supervisor for TZC
Management, also said that defendant knew that the fact
that the beams were elevated with no handrail created a
“falling hazard.”
Under Gravatt I think the defense is right, the Second
Circuit appears to have instructed that the true test for
LHWCA liability for dual-capacity vessel owners is not

29a
Appendix B
necessarily the three-part test, but rather whether the
negligent conduct “was performed in the course of the
operation of the owner’s vessel as a vessel or whether the
conduct was performed in furtherance of the employer’s
harbor-working operations.” That is from Daza versus
Pile Foundation Construction Company, 983 F.Supp.2d
399, 411.
Moreover, it is clear that the ringer crane on the Strong
Island barge was used for construction purposes rather
than for functions inherent to the vessel itself. In fact,
when plaintiff was inspecting the engine compartment
for frozen air lines, he was functioning within his role
as a “Group 2B Mechanic” and was engaged in conduct
related to TZC’s capacity as his employer, meaning that
the LHWCA workers’ compensation benefits are his
exclusive remedy. That’s all lifted from Matter of Franz,
2016 WL 922793 at *8.
[48]So I think that the undisputed facts here line up
with some of the same facts in cases that have applied
Gravatt in the dual-capacity context. So for example, in
Daza, summary judgment was granted to the defendant
there where the plaintiff employee was engaged in work
pertaining to a crane and not pertaining to vessel duties.
And just as it was in Daza, plaintiff here, his employment
was only for the purpose of construction and not related
to TZC’s capacity as the vessel owner.
And it can’t really be said that TZC violated its
turnover duty because plaintiff has already admitted
that the danger of the steel beams was apparent to him,

30a
Appendix B
it was not a hidden danger that he could not uncover with
reasonable inspection, which was relevant also in Daza as
discussed at page 412.
In Franz, because the barge was not functioning as
a vessel at the time of the accident, the court found the
dual-capacity owner defendant was not “engaged in vessel
duties at the time of the accident.”
At the time of the accident plaintiff was assigned
to work on the ringer crane by his foreperson. He was
engaged in “inspection and repair work,” which is separate
and apart from the vessel’s work, which is exactly how
Franz came out the way it did.
And so my view is that the cases that plaintiff [49]
relies on really don’t address the specific carve-out that’s
made in Gravatt with regard to dual capacity, and they’re
distinguishable because they mostly pertain to slip-andfalls related to gangways, providing ingress and egress
to and from the vessels themselves, which is different
materially from the walkway to and from the engine
compartment of a crane on the vessel used for equipmentinspection purposes.
And the one case from the Second Circuit that plaintiff
does cite is pre-Gravatt, and it’s also distinguishable
because the slip-and-fall was caused by obstructions from
“lashing gear, including greased and oily turnbuckles,
chains and wires,” and an oily and greasy deck, all of
which were hazards that were generated by the actions
of the vessel’s crew, but no such allegation is made here.

31a
Appendix B
So in the Court’s view, there are no disputed facts
as to whether TZC’s alleged negligent conduct occurred
through its role as a vessel owner under the LHWCA and
so therefore Count Four is dismissed.
Anything else?
MR. DENGLER: Nothing from me, your Honor.
THE COURT: Anything else, Mr. Hofmann?
MR. HOFMANN: No, your Honor.
THE COURT: Okay. Then we are adjourned. I’ll
enter an order noting the result here for reasons stated
on the record.
[50]MR. DENGLER: Thank you. Your Honor.
(Proceedings concluded)

32a
AppendixOF
C REHEARING OF
APPENDIX C — DENIAL
THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT, DATED
DECEMBER 23, 2020
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
Docket No: 20-36
At a stated term of the United States Court of Appeals
for the Second Circuit, held at the Thurgood Marshall
United States Courthouse, 40 Foley Square, in the City
of New York, on the 23rd day of December, two thousand
twenty.
BRIAN DOTY,
Plaintiff-Appellant,
v.
TAPPAN ZEE CONSTRUCTORS, LLC,
Defendant-Appellee.
ORDER
Appellant, Brian Doty, filed a petition for panel
rehearing, or, in the alternative, for rehearing en banc.
The panel that determined the appeal has considered the
request for panel rehearing, and the active members of the
Court have considered the request for rehearing en banc.

33a
Appendix C
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

34a
Appendix
D
APPENDIX
D — RELEVANT
STATUTORY PROVISIONS
33 U.S.C.A. § 901
§ 901. Short title
This chapter may be cited as “Longshore and Harbor
Workers’ Compensation Act.”

35a
Appendix D
33 USCS § 902
§ 902. Definitions
When used in this Act—
(1) The term “person” means individual, partnership,
corporation, or association.
(2) The term “injury” means accidental injury or
death arising out of and in the course of employment,
and such occupational disease or infection as arises
naturally out of such employment or as naturally or
unavoidably results from such accidental injury, and
includes an injury caused by the willful act of a third
person directed against an employee because of his
employment.
(3) The term “employee” means any person engaged
in maritime employment, including any longshoreman
or other person engaged in longshoring operations,
and any harbor-worker including a ship repairman,
shipbuilder, and ship-breaker, but such term does not
include—
(A) individuals employed exclusively to perform
office clerical, secretarial, security, or data
processing work;
(B) indiv iduals employed by a club, camp,
recreational operation, restaurant, museum, or
retail outlet;

36a
Appendix D
(C) individuals employed by a marina and who
are not engaged in construction, replacement,
or expansion of such marina (except for routine
maintenance);
(D) individuals who (i) are employed by suppliers,
transporters, or vendors, (ii) are temporarily doing
business on the premises of an employer described
in paragraph (4), and (iii) are not engaged in work
normally performed by employees of that employer
under this Act;
(E) acquaculture workers;
(F) individuals employed to build any recreational
vessel under sixty-five feet in length, or individuals
employed to repair any recreational vessel, or
to dismantle any part of a recreational vessel in
connection with the repair of such vessel;
(G) a master or member of a crew of any vessel; or
(H) any person engaged by a master to load or
unload or repair any small vessel under eighteen
tons net;
if individuals described in clauses (A) through (F)
are subject to coverage under a State workers’
compensation law.
(4) The term “employer” means an employer any
of whose employees are employed in maritime

37a
Appendix D
employment, in whole or in part, upon the navigable
waters of the United States (including any adjoining
pier, wharf, dry dock, terminal, building way, marine
railway, or other adjoining area customarily used by an
employer in loading, unloading, repairing, or building
a vessel).
(5) The term “carrier” means any person or fund
authorized under section 32 [33 USCS § 932] to insure
under this Act and includes self-insurers.
(6) The term “Secretary” means the Secretary of
Labor.
(7) The term “deputy commissioner” means the deputy
commissioner having jurisdiction in respect of an
injury or death.
(8) The term “State” includes a Territory and the
District of Columbia.
(9) The term “United States” when used in a
geographical sense means the several States and
Territories and the District of Columbia, including
the territorial waters thereof.
(10) “Disability” means incapacity because of injury to
earn the wages which the employee was receiving at
the time of injury in the same or any other employment;
but such term shall mean permanent impairment,
determined (to the extent covered thereby) under the
guides to the evaluation of permanent impairment

38a
Appendix D
promulgated and modified from time to time by the
American Medical Association, in the case of an
individual whose claim is described in section 10(d)(2)
[33 USCS § 910(d)(2)] of this title;
(11) “Death” as a basis for a right to compensation
means only death resulting from an injury.
(12) “Compensation” means the money allowance
payable to an employee or to his dependents as
provided for in this Act, and includes funeral benefits
provided therein.
(13) The term “wages” means the money rate at which
the service rendered by an employee is compensated
by an employer under the contract of hiring in force
at the time of the injury, including the reasonable
value of any advantage which is received from the
employer and included for purposes of any withholding
of tax under subtitle C of the Internal Revenue Code
of 1954 [1986] [26 USCS §§ 3101 et seq.] (relating to
employment taxes). The term wages does not include
fringe benefits, including (but not limited to) employer
payments for or contributions to a retirement, pension,
health and welfare, life insurance, training, social
security or other employee or dependent benefit plan
for the employee’s or dependent’s benefit, or any other
employee’s dependent entitlement.
(14) “Child” shall include a posthumous child, a child
legally adopted prior to the injury of the employee, a
child in relation to whom the deceased employee stood

39a
Appendix D
in loco parentis for at least one year prior to the time
of injury, and a stepchild or acknowledged illegitimate
child dependent upon the deceased, but does not
include married children unless wholly dependent on
him. “Grandchild” means a child as above defined of a
child as above defined. “Brother” and “sister” include
stepbrothers and stepsisters, half brothers and half
sisters, and brothers and sisters by adoption, but does
not include married brothers nor married sisters
unless wholly dependent on the employee. “Child”,
“grandchild”, “brother”, and “sister” include only a
person who is under eighteen years of age, or who,
though eighteen years of age or over, is (1) wholly
dependent upon the employee and incapable of selfsupport by reason of mental or physical disability, or
(2) a student as defined in paragraph (19) [(18)] of this
section.
(15) The term “parent” includes step-parents and
parents by adoption, parents-in-law, and any person
who for more than three years prior to the death of
the deceased employee stood in the place of a parent
to him, if dependent on the injured employee.
(16) The terms “widow or widower” includes only the
decedent’s wife or husband living with or dependent
for support upon him or her at the time of his or her
death; or living apart for justifiable cause or by reason
of his or her desertion at such time.
(17) The terms “adoption” or “adopted” mean legal
adoption prior to the time of the injury.

40a
Appendix D
(18) The term “student” means a person regularly
pursuing a full-time course of study or training at an
institution which is—
(A) a school or college or university operated or
directly supported by the United States, or by any
State or local government or political subdivision
thereof,
(B) a school or college or university which has been
accredited by a State or by a State recognized or
nationally recognized accrediting agency or body,
(C) a school or college or university not so accredited
but whose credits are accepted, on transfer, by not
less than three institutions which are so accredited,
for credit on the same basis as if transferred from
an institution so accredited, or
(D) an additional type of educational or training
institution as defined by the Secretary,
but not after he reaches the age of twenty-three
or has completed four years of education beyond
the high school level, except that, where his
twenty-third birthday occurs during a semester
or other enrollment period, he shall continue to be
considered a student until the end of such semester
or other enrollment period. A child shall not be
deemed to have ceased to be a student during
any interim between school years if the interim
does not exceed five months and if he shows to the

41a
Appendix D
satisfaction of the Secretary that he has a bona fide
intention of continuing to pursue a full-time course
of education or training during the semester or
other enrollment period immediately following the
interim or during periods of reasonable duration
during which, in the judgment of the Secretary,
he is prevented by factors beyond his control from
pursuing his education. A child shall not be deemed
to be a student under this Act during a period of
service in the Armed Forces of the United States.
(19) The term “national average weekly wage” means
the national average weekly earnings of production or
nonsupervisory workers on private nonagricultural
payrolls.
(20) The term “Board” shall mean the Benefits Review
Board.
(21) Unless the context requires otherwise, the term
“vessel” means any vessel upon which or in connection
with which any person entitled to benefits under this
Act suffers injury or death arising out of or in the
course of his employment, and said vessel’s owner,
owner pro hac vice, agent, operator, charter or bare
boat charterer, master, officer, or crew member.
(22) The singular includes the plural and the masculine
includes the feminine and neuter.

42a
Appendix D
33 USCS § 903
§ 903. Coverage
(a) Disability or death; injuries occurring upon
navigable waters of United States. Except as otherwise
provided in this section, compensation shall be payable
under this Act in respect of disability or death of an
employee, but only if the disability or death results from
an injury occurring upon the navigable waters of the
United States (including any adjoining pier, wharf, dry
dock, terminal, building way, marine railway, or other
adjoining area customarily used by an employer in loading,
unloading, repairing, dismantling, or building a vessel).
(b) Governmental officers and employees. No
compensation shall be payable in respect of the disability
or death of an officer or employee of the United States, or
any agency thereof, or of any State or foreign government,
or any subdivision thereof.
(c) Intoxication; willful intention to kill. No compensation
shall be payable if the injury was occasioned solely by the
intoxication of the employee or by the willful intention of
the employee to injure or kill himself or another.
(d) Small vessels.
(1) No compensation shall be payable to an employee
employed at a facility of an employer if, as certified by
the Secretary, the facility is engaged in the business
of building, repairing, or dismantling exclusively

43a
Appendix D
small vessels (as defined in paragraph (3) of this
subsection), unless the injury occurs while upon the
navigable waters of the United States or while upon
any adjoining pier, wharf, dock, facility over land for
launching vessels, or facility over land for hauling,
lifting, or drydocking vessels.
(2) Notwithstanding paragraph (1), compensation shall
be payable to an employee—
(A) who is employed at a facility which is used in
the business of building, repairing, or dismantling
small vessels if such facility receives Federal
maritime subsidies; or
(B) if the employee is not subject to coverage under
a State workers’ compensation law.
(3) For purposes of this subsection, a small vessel
means—
(A) a commercial barge which is under 900 lightship
displacement tons; or
(B) a commercial tugboat, towboat, crew boat,
supply boat, fishing vessel, or other work vessel
which is under 1,600 tons gross as measured under
section 14502 of title 46, United States Code, or an
alternate tonnage measured under section 14302
of that title as prescribed by the Secretary under
section 14104 of that title.

44a
Appendix D
(e) Credit for benefits paid under other laws.
Notwithstanding any other provision of law, any amounts
paid to an employee for the same injury, disability, or death
for which benefits are claimed under this Act pursuant to
any other workers’ compensation law or section 20 of the
Act of March 4, 1915 (38 Stat. 1185, chapter 153; 46 U.S.C.
688 [46 USCS §§ 30104, 30105]) (relating to recovery for
injury to or death of seamen) shall be credited against
any liability imposed by this Act.

45a
Appendix D
33 USCS § 904
§ 904. Liability for compensation
(a) Every employer shall be liable for and shall secure the
payment to his employees of the compensation payable
under sections 7, 8, and 9 [33 USCS §§ 907, 908, and
909]. In the case of an employer who is a subcontractor,
only if such subcontractor fails to secure the payment
of compensation shall the contractor be liable for and
be required to secure the payment of compensation.
A subcontractor shall not be deemed to have failed to
secure the payment of compensation if the contractor has
provided insurance for such compensation for the benefit
of the subcontractor.
(b) Compensation shall be payable irrespective of fault as
a cause for the injury.

46a
Appendix D
33 U.S.C.A. § 905
§ 905. Exclusiveness of liability
(a) Employer liability; failure of employer to secure
payment of compensation
The liability of an employer prescribed in section 904 of
this title shall be exclusive and in place of all other liability
of such employer to the employee, his legal representative,
husband or wife, parents, dependents, next of kin, and
anyone otherwise entitled to recover damages from
such employer at law or in admiralty on account of such
injury or death, except that if an employer fails to secure
payment of compensation as required by this chapter, an
injured employee, or his legal representative in case death
results from the injury, may elect to claim compensation
under the chapter, or to maintain an action at law or
in admiralty for damages on account of such injury or
death. In such action the defendant may not plead as a
defense that the injury was caused by the negligence
of a fellow servant, or that the employee assumed the
risk of his employment, or that the injury was due to the
contributory negligence of the employee. For purposes of
this subsection, a contractor shall be deemed the employer
of a subcontractor’s employees only if the subcontractor
fails to secure the payment of compensation as required
by section 904 of this title.

47a
Appendix D
(b) Negligence of vessel
In the event of injury to a person covered under this
chapter caused by the negligence of a vessel, then such
person, or anyone otherwise entitled to recover damages
by reason thereof, may bring an action against such
vessel as a third party in accordance with the provisions
of section 933 of this title, and the employer shall not be
liable to the vessel for such damages directly or indirectly
and any agreements or warranties to the contrary shall be
void. If such person was employed by the vessel to provide
stevedoring services, no such action shall be permitted if
the injury was caused by the negligence of persons engaged
in providing stevedoring services to the vessel. If such
person was employed to provide shipbuilding, repairing,
or breaking services and such person’s employer was the
owner, owner pro hac vice, agent, operator, or charterer
of the vessel, no such action shall be permitted, in whole
or in part or directly or indirectly, against the injured
person’s employer (in any capacity, including as the vessel’s
owner, owner pro hac vice, agent, operator, or charterer)
or against the employees of the employer. The liability of
the vessel under this subsection shall not be based upon
the warranty of seaworthiness or a breach thereof at the
time the injury occurred. The remedy provided in this
subsection shall be exclusive of all other remedies against
the vessel except remedies available under this chapter.
(c) Outer Continental Shelf
In the event that the negligence of a vessel causes injury
to a person entitled to receive benefits under this Act

48a
Appendix D
by virtue of section 1333 of Title 43, then such person,
or anyone otherwise entitled to recover damages by
reason thereof, may bring an action against such vessel
in accordance with the provisions of subsection (b) of this
section. Nothing contained in subsection (b) of this section
shall preclude the enforcement according to its terms of
any reciprocal indemnity provision whereby the employer
of a person entitled to receive benefits under this Act by
virtue of section 1333 of Title 43 and the vessel agree to
defend and indemnify the other for cost of defense and loss
or liability for damages arising out of or resulting from
death or bodily injury to their employees.

49a
Appendix D
46 U.S.C.A. § 30104
Formerly cited as 46 App. USCA § 688
§ 30104. Personal injury to or death of seamen
[Statutory Text & Notes of Decisions
subdivisions I to III]
<Notes of Decisions for 46 USCA § 30104 are
displayed in multiple documents.>
A seaman injured in the course of employment or, if the
seaman dies from the injury, the personal representative
of the seaman may elect to bring a civil action at law, with
the right of trial by jury, against the employer. Laws of the
United States regulating recovery for personal injury to,
or death of, a railway employee apply to an action under
this section.

